m ijj

al!oh 0> '-u

No. ~

IN THE
SUPREME COURT OF THE UNITED STATES
/T

/. ;

,

y ■ it\ r

r

l:J * f’ H 'M ^ .i'1! y u 'i':h

EFRAIN SANTOS

-PETITIONER

(Your Name)

FILED
SEP 1 6 2020

VS.
STEWART ECKERT

— RESPONDENT(^^rIm0eFcouRTujK

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

EFRAIN SANTOS

(Your Name)
WENDE CORRECTIONAL FACILITY
3040 WENDE ROAD, P.O. BOX 1187
(Address)
ALDEN, NEW YORK 14004

(City, State, Zip Code)
none

(Phone Number)

1187

QUESTION(S) PRESENTED
1. Whether the U.S. Court of Appeals for the Second Circuit erred
in refusing to grant petitioner a COA to appeal from a judgment of
the District Court denying Federal Habeas relief?
2. Whether a Fourteenth Amend, due process claim of prosecutorialmisconduct can be predicated on a prosecutor's prejudicial use of a
jigsaw puzzle (depicting a gun) to explain the "reasonable doubt"
standard (in a case involving a shooting) notwithstanding the lack
of Supreme Court precedant condemning the act?
3. Whether a Sixth Amend, claim of Ineffective Assistance of trial
counsel can be predicated upon an attorney's failure to object (on
basis of state law grounds) to prosecutorial misconduct in a state
court proceeding*

although the instances of prosecutorial conduct

itself, are insufficient to establish a due process violation under
the Federal Constitution?

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES

None.

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Buck v. Davis, 137 S.ct 759 t'2017]
Darden v. Wainright, 477 U.S. 168 [1986 ] *
Estelle v. McGuire, 502 U.S. 62 [
]
Miller-El ,v. Cockrell, 537 U.S. 322 [2003]

5
8
9

• .

' .

5
9

Strickland v. Washington, 466 U.S. 668 [1984]
Jones v. Zatecky, 917 F.3d 578 [7 cir.
2019] .
McNary v. Lempke, 708 F.3d 905 [ cir.
] •
U.S. v. Bradley, 917 F.3d 493 [6 cir.
2019] .
U.S. v. Pungitore, 910 F.2d 1084 [3 cir.
1990]

8, 9
7
7

Washington v. Hofbaur, 228 F.3d 689 [6 cir. 2000]

10

Santos v. Eckert, 2019 WL 6895249 [NDNY 2019]

1

9

STATUTES AND RULES
U.S. Constitution Amendment VI
.•
U.S. Constitution Amendment XIV
28 U.S.C. §2253(c)
28 U.S.C. §1254(1 )

1
2

••

■

2

•

-•

•-

1

RELEVANT STATE LAW AUTHORITIES
People v. Fredrick ' 53 AD 3d 1088 [4 Dept. 2008 ] ..
People v. Griffin, 125 AD3d 1509 [4 Dept.
] .
People v. Hatward-Crawford, 151 AD3d 1584 [4 Dept.
]
People v. Hicks, 100 AD3d 1379 [4 Dept. 2012]
People v. Jones, 134 AD2d 1588 [4 Dept.
•.
]
People v. Katzenburger, 178 Cal App. 4th 1260 [2009]
People v. Porter, 136 AD3d 1344, [4 Dept.
] .
People v. Santos, 151 AD3d 1620 [4 Dept. 2017] .
People v. Santos, 29 NY3d 1133 [2017]
People v. Wilds / 141 AD2d 395

[1 Dept. 1988]

10
9-10
10
10
9
7
9
3
3
7

TABLE OF CONTENTS
OPINIONS BELOW...

1

JURISDICTION

l

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

l

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

4

I. THE COURT OF APPEALS FOR THE SECOND CIRCUIT ERRED IN
DENYING PETITIONER'S APPLICATION FOR A COA, BECAUSE
THE PETITIONER MADE THE "SUBSTANTIAL SHOWING" OF THE

constitutional violations of his rights during state
CRIMINAL TRIAL PROCEEDINGS .

.

.

.

...

.. 5

r

A. The Prosecutor's use of a Jigsaw Puzzle Analogy during
Trial to Explain The Burden of Proof Involved Issues of
Due Process, that are Debatable Among Jurists of Reason
And Was Adequate To Deserve Encouragement to Proceed

. 5

B. The Lower Court's conclusion that Sixth Amend;. Claim
of Ineffective Assistance of Counsel Could Not be t
Predicated on A
i-s—ofState Law Grounds to Prosecutorial Misconduct, because
Misconduct Was Insufficient to Establish Violation of
Federal Constitution Was Unreasonable And Has been
Resolved Differently by Other Jurists of Reason

.

CONCLUSION

8
11

APPENDIX A

Decision of the Court of Appeals, Second Circuit
denying Certificate of Appealability.

APPENDIX B

Decision of District Court, Northern District of
New York denying Federal Habeas relief.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a Writ 'of Certiorari issue to
review the judgment below.,/

OPINIONS BELOW
The opinion of the United States Court of Appeals appears at the
Appendix A to the petition and is unpublished.
The opinion of the United States District Court appears at' the
....... Appendix B to the petition and is reported at: Santos v. Eckert,
2019 WL 6895249.
JURISDICTION
The date on which the United States District Court denied Federal
Habeas relief was December 18> 2019.
A timely petition for a Certificate of Appealability was filed in
the United States Court of Appeals for the Second Circuit and was
denied on June 5, 2020.
The jurisdiction of this court is invoked under 28 U.S.C §1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Const. Amend VI.
"In all criminal prosecutions, the accused shall enjoy the.right

-1-

Petitioner appealed his conviction through counsel, who in relevant
part argued that petitioner was denied due process (fair trial) as
a' result of prosecutorial misconduct and relatedly argued that .his
trial counsel was ineffective in failing to object to the conduct.
From the onset of opening statements, the prosecutor had pursued a
horror theme, using inflammatory remarks, appealing to the sympathy
of the jury at length about the imagined horror that the victims'
mother went through watching her two sons get gunned down

a nd by

:

repeated guotes attributed to George Washington and leading sheep
to slaughter [T2 (§ 240 - 41, 246, 247, 252].

The prosecutor likwise

denigrated the defense, by continually refering to defense counsels
arguments as " ridiculous,,p
"big conspiracy theory"

"not true"

and that it was based on a

[T2 i> 380, 383, 384, 397 - 98, 401 ].

Then,

used a jigsaw puzzle analogy depicting a gun to explain the burden
of proof [T2 d> 407]

and voiched for credibility of_a "key witness"

(the codefendant who took a plea deal in exchange for his testimony)
[T2 @ 181 , 397-98],

although his trial testimony was inconsistent

with what he previously told police [T2 @204, 212-15, 230].

The

state appeals court held that the issue of prosecutorial misconduct
was not preserved
object at trial

for appeal based on

failure of trial counsel to

and declined to exercise it's review power (People

v. Santos, 151 AD 3d 1620, 1621 - 22 (4 Dept. 2017].

Further appeal

to the NYS Court of Appeals was summarily denied (People v. Santos,
29 NY3d 1133 [2017]).
The petitioner timely filed a pro se petition for a Writ of Habeas
Corpus

in the U.S. District Court,
-3-

Northern District of New York.

y The District Court denied the petition, in short on grounds that:
(i) petitioner's due process claim of prosecutorial misconduct was
procedurally defaulted in state court,

yet, failed to address

petitioner's advanced issues of cause,

but (ii) addressed each of

the instances of prosecutorial remarks (seperately),

the

finding them

to be either fair response to defense counsel's comments or to be
insufficient to establish Federal due process violations;

(iii)

that because petitioner failed to establish that the prosecutor had
committed misconduct the related ineffective assistance claims also
must fail (exhibit B).
The petitioner then timely moved for a COA in the Court of Appeals,
which summarily denied the application (exhibit A).
REASONS FOR GRANTING WRIT OF CERTIORARI
First,

this petition presents the opportunity for this court

to

resolve recurring issue(s) of due process implicated by prosecutors
using jigsaw puzzle analogies (that often depict an inflammatory i llus-trat-i-on) to explain—the—standard ~of ~ge<

-in—a—way-

that clearly diminishes the burden of proof.
Second, the petition provides an important constitibnal question in
conflict of whether a Sixth Amend, claim of ineffective assistance
can be predicated on an attorney's failure to raise state law issue
in a state court proceeding under Strickland.

-4-

;

I. THE COURT OF APPEALS FOR THE SECOND CIRECUIT ERRED IN
DENYING PETITIONER'S APPLICATION FOR A COA, BECAUSE
THE PETITIONER MADE THE "SUBSTANTIAL SHOWING" OF THE
CONSTITUTIONAL VIOLATIONS OF HIS RIGHTS DURING STATE
CRIMINAL TRIAL PROCEEDS.
In the context of a Certificate of Appealability, where applicants
must make a substantial showing of

the denial Of a constitutional

right (§2253[c][2]), this court has long cautioned that a thresshold
inquiry is not co-extensive with the merits analysis

and does not

require the showing that the appeal would succeed,

Instead,

only question is whether the applicant can show that

the

jurists of

reason could disagree with the district court's resolution of his
constitutional claims

or that

issues presented are adequate

jurists could conclude that the
to deserve encouragement to proceed

further. Buck v. Davis, 137 S.ct 759, 773 - 74 [2017](quoting Miller
-El v. Cockrell, 537 U.S. 322, 336 - 37 [2003]).
Here,

petitioner advanced two constitutional claims that

specific instances of prosecutorial misconduct

involved

and related issues

of counsel's failure to object to those instances of misconduct at
trial. Resolution of- the claims by the district court, however are
debateable by jurists of reason and further deserved encouragement
to proceed, which demonstrated entitlement to a COA.
A. The Prosecution's Use of Jigsaw Puzzle Analogy During The Trial
To Explain the Burden Of Proof Involved Issues of Due Process.
.... It is undisputed here th at the prosecutor made sever a1 comment sand

-5-

remarks that have been found to be improper by both state /federal
court precedents, which included inter alia, comments appealing to
the sympathy of the jury:
"begging and pleading for her...sons's lives as she watched
the defendant lead her sons like sheep to the slaughter."
(in reference to testimony by the mother of the victims);

and by

denigrating the defense by refering to it as being "ridiculous" or
based on "conspiracy theories"

and by vouching for credibility of

the codefendant that testified for the prosecutor, suggesting that
he had nothing to gain by his testimony...
Amid the improper comments, the prosecutor also used a metaphor to
explain the burden of proof,
depicted a gun

which involved a jigsaw puzzle

that

and quantified the standard of "reasonable doubt"

in the following manner:
"That's the picture of a puzzle (indicating).

Are there pieces

missing? Yes. Are there some unanswered questions? Yes. Can you
still conclude beyond a reasonable doubt that is a picture of a
" gu n I
. Now,' if you walk right up to
it, okay/ if you were to walk right up to the picture and just
look at this one little missing piece right here (indicating),
as the defense is aksing you to do, this one thing here is
missing.

If you only look at that, you can't conclude what the

picture is, but if you take a minute, take a breath and step back and loo at the whole picture/ then you conclude beyond a
reasonable doubt what it is."

[T2 i> 407].

This had created the distinct impression that the reasonable doubt
‘ standard may be met by fewer pieces of evidence

-6-

and invited the

jury to guess and jump at conclusions. Moreover, a real prospect of
prejudice was elevated by the fact that the puzzle depicted a gun
as opposed to some other picture, because the jury was readily able
to connect the puzzle to this case, which involved a shooting

and

then conclude that a lesser burden of proof would suffice. Noteably
this was not an easy case for the jury.

It deliberated for approx,

two days. The subject matter of the case was sensitive, given that
a man lost his life and that his brother was also wounded by a gun.
It was therefore a cummulative effect of improper and prejudicial remarks along with the metaphor, which created the real possibility
of the jury not convicting the petitioner based on evidence, but as
a result of misleading information,

improper comment and sympathy.

Other courts that have ruled on the issue of prosecutor's using jig
saw puzzles to illustrate the reasonable doubt standard “do readily
agree that it constitutes misconduct,

but are split on whether it

can infect trial with such unfairness as to constitute the denial
of due process. Compare:
---- U.S. ■v.-Bradley,

_. 2019 ] (“found to be

“

improper, but not flagarant misconduct requiring reversal); U.S. v.
Pungitore, 910 F.2d 1084, 1128 [3 cir. 1990] (found use of puzzle
improperly suggested quantative measure of reasonable doubt, but to
be fair reply to defense counsel's opening statement(s) and did riot
prejudice defense); People•v. Katzenburqer, 178 Cal. App. 4th 1260,
1264 - 68 [2009] (found use of puzzle improper, but that defense was
not prejudiced, following curative instructions); and the People v.
Wilds, 141 AD2d 395, 398 [1 Dept. 1988] (Found use of puzzle to be
-7-

prejudicial, reversed the conviction and ordered a new trial).
The foregoing cases demonstrate that debatable issue exists as to
whether metaphors by prosecutors using jigsaw puzzles to illustrate
the standard of reasonable doubt violate Federal due process. Few
courts have addressed this issue, but it remains an open question
within the Second Circuit and therefore deserved encouragement to
proceed further. Namely, for clear analysis under the substantial
prejudice standard set by this court in Darden v. Wainright, 477
U.S. 168, 181 [1986].
B. The Lower Court's Conclusion that A Sixth Amendment Claim Of
Ineffective Assistance Can Not Be Predicated On An Attorney's
Failure To Object On The Basis of State Law Grounds To The Prosecutor's Misconduct, Because That Misconduct Had Not Been
Sufficient To Establish A Due Process Violation Under Federal
Constitution Was Unreasonable And has been resolved Differently
By Other Jurists Of Reason.
Even assuming that the instances of prosecutorial misconduct had
been insufficient itself, to establish a "due process" violation
under federal constitution,

it was unreasonable to conclude per

se, that a related Sixth Amend, claim of ineffective assistance,
must likewise fail, based on counsel’s failure to object to that
misconduct on the basis of state law (regarding prosecutorial misconduct).
A Sixth amendment claim of ineffective assistance of counsel can
be predicated on the attorney's failure to raise state law issues
in state court proceedings.

See generally McNary v. Lempke, 708
-8-

V.

F.3d 905, 920, citing Estelle v. McGuire, 502 U.S. 62, 67 - 68). It
did not require the District Court to resolve question(s) of state
law as it erroneously suggested.
Under the test standards of Strickland v. Washington, 466 U.S. 668
[19841,

this petitioner was required to demonstrate the reasonable

probability that he would have obtained relief,

if his counsel had

objected to the instances of prosecutorial misconduct at trial. Theissues of N.Y. State Law on the claimed instances of prosecutorial
misconduct underlied the Strickland analysis.

That is because, the

District Court had been required to assess counsel's performance —
against the back drop of the applicable state law.

See Jones v.

Zateckv, 917. F. 3d 578, 58 3 [7 cir. 2019].
Here,

the prosecutor's conduct was plainly improper.

Beyond the

obviously improper use of the jigsaw puzzle (depicting a gun),

the

prosecutor repeatedly made comments / remarks that were known to be
prejudicial, inflammatory or denigrating to the defense such as the
quotes attributed to George Washington ..and of leading sheep to the
slaughter,
as

and consistently refering to.defense counsel's argument

"ridiculous;"

theory."

"not true,"

and being based on "a big conspiracy

Significantly, the state appellate court (Fourth Dept.),

where the petitioner took direct appeal has consistently overturned
convictions and ordered a new trial, were as here, the curamulative
effect of similar comments and misconduct was found to be improper
under state law.

i.e.:

People v. Jones, 134 AD2d 1588, 1589;

----- People -v. Porter, 136 AD3d 1344, 1346;

-9-

People v. Griffin, 125 AD3d

Amend, rights to counsel (under Federal Constitution) based on the
failure of counsel to object to the issues of prosecutorial misconduct (based on state law .grounds)

was never decided on the

merits in either state court or the Federal District Court, which
denied thei claim on a basis that was contrary tb precedant set by
this court's Strickland jurisprudence, as unreasonably applied and
deserved encouragement to proceed further.
CONCLUSION
Based upon the foregoing facts, circumstances and applicable case
authority, the petition for a Writ of Certiorari should be granted
to this pro se petitioner (Efrain Santos).

RESPECTFULLY SUBMITTED,

EFRAIN SANTOS, Pro Se
(Petitioner)
Dated: September 2, 2020.

-11-

